AIR CARRIER COMPENSATION CLAIMS
 AIR TRANSPORTATION SAFETY AND
     SYSTEM STABILIZATION ACT

          Office of the Secretary

          Report No: CR-2003-092
      Date Issued: September 30, 2003
                                                                 Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   ACTION: Report on Air Carrier Compensation                                 Date:    September 30, 2003
           Claims, Air Transportation Safety and System
           Stabilization Act, Office of the Secretary
           Report No: CR-2003-092

  From:    Alexis M. Stefani                                                       Reply to    JA-1
                                                                                   Attn. of:
           Principal Assistant Inspector General for
            for Auditing and Evaluation

    To:    Acting Assistant Secretary for Aviation and
            International Affairs

           This consolidated report summarizes the results of our reviews of financial and
           operational data submitted by 19 non-major air carriers1 in support of
           compensation claims filed under the Air Transportation Safety and System
           Stabilization Act (Act). Our objective in these reviews was to evaluate the
           reasonableness of the air carriers’ compensation claims. The results of the reviews
           were previously provided to the Claims Review Team, within the Secretary’s
           Office of the Assistant Secretary for Aviation and International Affairs, in a series
           of individual advisories that we issued from April 2002 through September 2003.
           Based on the findings and recommendations contained in those advisories, the
           Department has concurred with and realized savings of $28.5 million. The
           Department could realize additional savings of $10.5 million if the Claims Review
           Team concurs with our findings and recommendations concerning three additional
           air carriers.

           The reviews were performed in accordance with the Department’s procedures,
           which state that all air carrier claims are subject to audit by the Office of Inspector
           General (OIG), and included testing of claimed amounts to source documents.
           Exhibit A provides details on the results of our reviews. Our scope, methodology,
           and prior audit coverage are described in Exhibit B. The scope of our review was
           limited to non-major air carriers because Congress requested the General
           Accounting Office to report on the major airlines’ September 11-related losses and
           the compensation payments they received for those losses.

           1
            Due to the proprietary nature of the information contained in this report, we did not identify each carrier
           by name and provided an alphabetical identity instead.
                                                                                        2


BACKGROUND
The terrorist attacks on September 11, 2001, and the temporary shutdown of civil
aviation that followed resulted in severe financial losses to the U.S. commercial
aviation industry and placed the financial survival of many air carriers at risk. The
Act was intended to provide emergency financial relief to preserve the continued
viability of the U.S. air transportation system.

Section 101(a)(2) of the Act provided $5 billion in compensation for:

           (A) direct losses incurred beginning on September 11, 2001, by air
           carriers as a result of any Federal ground stop order issued by the
           Secretary of Transportation or any subsequent order which continues
           or renews such stoppage; and

           (B) the incremental losses incurred beginning September 11, 2001
           and ending December 31, 2001, by air carriers as a direct result of
           such attacks.

Section 103(b) of the Act established the maximum compensation the Department
could pay an air carrier:

           . . . the lesser of- (1) the amount of such air carrier’s direct and
           incremental losses described in section 101(a)(2); or

           (2) in the case of- (A) flights involving passenger-only or combined
           passenger and cargo transportation, the product of-
           (i) $4,500,000,000; and (ii) the ratio of- (I) the available seat miles
           of the air carrier for the month of August 2001 as reported to the
           Secretary; to (II) the total available seat miles of all such air carriers
           for such month as reported to the Secretary; and (B) flights involving
           cargo-only transportation, the product of- (i) $500,000,000; and
           (ii) the ratio of- (I) the revenue ton miles or other auditable measure
           of the air carrier for cargo for the latest quarter for which data is
           available as reported to the Secretary; to (II) the total revenue ton
           miles or other such auditable measure of all such air carriers for
           cargo for such quarter as reported to the Secretary.2

The Department distributed a draft program guidance letter to the air carrier
industry the same day the President signed the Act. The guidance letter sets forth
the Department’s request for information in order to distribute up to one-half of

2
    Revenue ton miles for the quarter ending June 2001 were used.
                                                                                                            3

the estimated compensation amounts. In addition, the Department’s draft program
guidance letter outlined claim information required from air carriers, and provided
a form air carriers were required to complete in order to receive an initial
compensation payment.

Within 6 days after the Act was signed, the Department had authorized
$2.3 billion in emergency payments to eligible air carriers. After authorizing the
emergency payments, the Department issued formal procedures and four
amendments to those procedures for air carriers to follow regarding compensation
under the Act. Payments to air carriers were based on the lower of the carrier’s
actual direct and incremental losses or a formula amount calculated from their
operational data.

The Department ultimately made payments in three rounds, which helped to
expedite release of the initial funds, develop a clearer understanding of the
collective losses of air carriers, and avoid overpayments to air carriers. As of
September 2003, the Department had made payments in excess of $4.6 billion to
more than 400 air carriers.

RESULTS
We reviewed financial and operational data that 19 non-major air carriers
submitted in support of their compensation claims. Our reviews were either self-
initiated or requested by the Department’s Claims Review Team. We previously
issued individual advisories that reported the results of our reviews to the
Department. We found 3 of the 19 air carriers were able to support their
compensation claims, and for 15 of the 19 air carriers, we recommended cost
adjustments representing potential savings of $45.9 million to the Department.3
As of September 2003, the Department concurred with and realized $28.5 million
of these savings. The Department could realize an additional $10.5 million of
savings if the Claims Review Team concurs with our findings and its discussions
with three additional air carriers result in lower compensation.

Our reviews of air carrier claims found that:4

    • 11 air carriers claimed incremental losses that were not directly related to
      the events of September 11. These claims included costs incurred for an air
      carrier’s reorganization under bankruptcy protection, uncollectible bad
      debts, or costs incurred outside the eligible compensation period;

3
  Our review of one air carrier was not used because the results were on the second round claim and final
payment was based on a significantly different claim.
4
  Reviews of air carrier claims may have identified more than one deficiency for each air carrier.
                                                                                                  4

    • 9 air carriers could not provide adequate support for their claimed expenses;

    • 4 air carriers submitted unacceptable pre-September 11 forecasts; and

    • 4 air carriers submitted unsupported operational data.

Incremental Losses Not Directly Related to September 11
Of the 19 air carriers we reviewed, 11 submitted claims that included incremental
losses not directly related to September 11. The Department defined an
“incremental loss” as a loss incurred by an air carrier from September 11 through
December 31, 2001, as a result of the terrorist attacks, and does not include any
loss that would have been incurred had the attacks not occurred.

Carrier L, for example, in its $20.3 million request, claimed $14.6 million in bad
debt allowances that it recorded for unpaid expenses by two of its code-share
partners.5 After an evaluation, we concluded that these unpaid expenses were not
compensable losses because the charges represented expenses incurred before the
compensation period. The non-payment was related to issues existing between
Carrier L and its code-share-partners before September 11. The Claims Review
Team’s settlement with the air carrier included a disallowance related to
$12.0 million of bad debts.

In another example, Carrier M began operating under Chapter 11 bankruptcy
protection prior to September 11, 2001, and successfully emerged from
bankruptcy as a reorganized company before December 31, 2001. Based on our
review of Carrier M’s supporting documentation for its $2.1 million claim, we
concluded that four expense accounts included expenses resulting from filing for
bankruptcy protection in August 2001, and were not related to the events of
September 11. The Claims Review Team concurred with our review and
disallowed more than $1 million of claimed costs.

Unsupported Expenses
We identified nine air carriers that could not adequately support their reported
expenses. Title 14 Code of Federal Regulations (CFR) Part 330 requires that air
carrier expenses be properly supported before they are paid. The CFR also
requires air carriers applying for compensation to retain for verification all books,
records, and other source and summary documentation supporting their claims for
compensation of direct and incremental losses.



5
  Code-sharing is an arrangement between two air carriers whereby one carrier makes reservations and
issues tickets and the second carrier operates the flights.
                                                                                  5

For example, Carrier B, in its $19.3 million claim, noted that its fuel expenses
were $8,023,000 less than in its forecast and that these savings were not related to
September 11, and, therefore, should be excluded in calculating compensable
losses. However, the Department’s Final Rule, Section 330.39, states:

      The Department generally does not accept claims by air carriers that
      cost savings should be excluded from the calculation of incurred
      losses. Consequently, the Department will generally not allow such
      claims to be used in a way that has the effect of increasing the
      compensation for which an air carrier is eligible.

We found that the fuel cost savings Carrier B claimed met the Department’s
criteria for disallowance. The Claims Review Team partially concurred with our
finding and reduced the final amount of compensation paid to Carrier B by
$6.9 million out of the $8.0 million recommended disallowance.

In another example, our review of $4.7 million in claimed losses and supporting
documentation for Carrier F found $624,057 of reported expenses that were not
adequately supported. Included in this amount were expenses for aircraft
preparation of $272,602 that the air carrier did not normally expense and $351,455
in aircraft engine repair costs that erroneously were included twice in the air
carrier’s accounting system. Based on our findings, we recommended that the air
carrier’s claimed losses be reduced to $1,379,514, and, therefore, the Department
had over-compensated the carrier by $3,338,017.             We are awaiting the
Department’s decisions on this review.


Unacceptable Pre-September 11 Forecasts
Under the compensation program, pre-September 11 forecasts served as the basis
on which incremental losses were calculated. Losses were estimated as the
difference between the forecasted and actual results for the period September 11
through December 31, 2001. We determined that the pre-September 11 forecasts
submitted by four air carriers were unacceptable because they were revised after
September 11, were not supported by the air carrier’s historical performance, or
were lacking supporting documentation.

• Forecast revisions made after September 11. As part of its $9.6 million
  request, Carrier C increased its pre-September 11 forecast revenue by
  $3,067,000 in November 2001, to recognize higher fees payable by another air
  carrier under an April 2001 fee per departure agreement that became effective
  September 1, 2001. According to Carrier C management, the $3,067,000 was
  inadvertently omitted from the pre-September 11 forecast revenues. However,
  the air carrier realized only $618,000 in forecasted higher fees through
                                                                                6

   December 31, 2001. These circumstances demonstrated that Carrier C’s
   agreement with the other air carrier did not guarantee the higher fees and the
   forecast revenue should not have been increased. The Department’s final
   compensation payment to Carrier C reflected concurrence with our finding by
   reducing the air carrier’s incremental losses by $3.1 million.

• Forecasts unsupported by carrier’s historical performance. Carrier N
  could not support its pre-September 11 forecast for operating revenue and
  income. Carrier N informed the Claims Review Team that its compensation
  claim’s pre-September 11 forecast was based on its prior year’s actual results.
  We found, however, that Carrier N’s actual fourth quarter operating income in
  2000 of $1,666,860 was not comparable to the operating income in the pre-
  September 11 forecast of $4,025,271. In fact, the actual fourth quarter
  operating income in 2001 of $1,653,608 was comparable to the prior year’s
  results. Accordingly, because there were no material changes to the air
  carrier’s operations, the pre-September 11 forecast submitted was not
  supported by the air carrier’s prior financial performance.

   We recommended that the Department deny Carrier N’s total incremental
   losses claimed of $3,731,333. As a result of the disallowance, the Department
   had overcompensated Carrier N by $2,448,058, the total amount of
   compensation payments made to the air carrier. However, the Claims Review
   Team concluded that its methodology in arriving at a representative
   incremental loss was reasonable and decided not to recover the compensation
   paid. We requested that the Department reconsider its determination and have
   not received a response. Therefore, we are now recommending that the
   Department provide a formal response to our request.

• Forecast lacking supporting documentation. Title 14 CFR Part 330 requires
  each air carrier applying for compensation to retain documentation verifying
  that its pre-September 11 forecast was the most recent one available at the time
  of application. As part of Carrier I’s $6.5 million request, it could not
  substantiate the data in its pre-September 11 forecast, claiming that the
  supporting documentation was accidentally destroyed, and its forecasts in the
  first and second rounds of payments were prepared after September 11.
  Although Carrier I produced a third-round pre-September 11 forecast that was
  documented, it was neither accurate nor supported by the air carrier’s prior
  financial performance. We recommended that the Claims Review Team deny
  the carrier’s claim based on either incremental losses or the formula
  compensation amount. We are awaiting their final determination.
                                                                                     7

Unsupported Operational Data
We found that four air carriers did not have support for the operational data they
claimed, as required by Title 14 CFR Part 330. For example, our review of Carrier
P’s claim of $2.1 million disclosed that the air carrier based its available seat miles
(ASM) on anticipated flights and did not maintain flight or reservation logs
documenting actual flights flown during August 2001. Because Carrier P could
not provide support for its actual flights, we questioned its methodology for
calculating ASMs and the $717,132 compensation payments it received. The
Claims Review Team is considering our finding that the Department has
overcompensated Carrier P.

Our review of Carrier G’s $2.5 million submission and its August 2001 ASM data
identified a revised total of 14,220,416 ASMs, a reduction of 2,706,595 ASMs.
Our analyses found that the actual number of seats on some helicopters was
different from the number of seats used in the ASM calculation, the average
cruising speed used in the calculation did not represent the actual speed flown
during flights because of their short duration, and the revenue miles calculated
were not representative of the actual mileage flown. The Claims Review Team
based its final compensation payment to Carrier G on our revised total ASMs,
resulting in savings of $132,388.

CONCLUSION AND RECOMMENDATIONS
We forwarded the results of our previous reviews to the Department for its
consideration and action. Our advisories contained findings and recommendations
totaling $45.9 million in disallowances, for which the Department concurred with
$28.5 million and was able to realize savings in this amount. The Department
could realize additional savings of $10.5 million if the Claims Review Team
concurs with our findings and recommendations concerning three additional air
carriers.    We recommend that the Assistant Secretary for Aviation and
International Affairs (1) notify us of the final settlement with the remaining three
air carriers and (2) provide a response to our previous request to the Claims
Review Team to reconsider its findings for Carrier N.

MANAGEMENT RESPONSE AND ACTIONS REQUIRED
On September 30, 2003, we received comments to a draft of this report from
Departmental officials. They noted, appropriately, that the Claims Review Team
and the OIG had worked together to ensure that proper payments were made in
this program and that taxpayers’ interests were protected. We evaluated the
incremental losses claimed by 16 air carriers at the request of the Claims Review
Team and provided our findings to the Team. Based on their internal reviews and
                                                                                  8

the additional information provided by our evaluations, the Team negotiated
settlements.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written response within 30 calendar days. If you concur
with the recommendations, please indicate the specific actions taken or planned
and the target dates for action. If you do not concur, please provide an explanation
of your position. In addition, please provide a statement indicating whether you
concur with our $39 million estimate of savings related to the final settlements
with the 19 air carriers. We welcome any alternative courses of action that could
resolve the issues.

We appreciate the courtesies and cooperation of the Department’s representatives.
If you have any questions concerning this report, please call me at (202) 366-1992
or Mark R. Dayton, Assistant Inspector General for Competition and Economic
Analysis at (202) 366-9970.


                                         #


cc: Audit Liaison, DOT/OST, M-1
                                                                                                                                9




EXHIBIT A. SUMMARY OF RESULTS FROM ISSUED OIG
ADVISORIES AND RESULTING SAVINGS

                                                                         OIG                          OST
Carriers                             Carrier’s Claimed              Recommended                       Final
Reviewed                            Incremental Losses               Disallowance                 Disallowance
Carrier A                             $      8,150,742              $        792,510             $        665,000
Carrier B                                   19,277,000                     8,023,000                    6,927,000
Carrier C                                    9,598,617                     2,059,230                    2,059,230
Carrier D                                    4,761,905                             0                            0
Carrier E                                    5,461,201                       250,000                      250,000
Carrier F                                    4,717,531                     3,338,017                        Open
Carrier G1                                   2,484,000                       132,388                      132,388
Carrier H                                    4,272,017                        20,228                       20,228
Carrier I                                    6,460,244                     6,460,244                        Open
Carrier J2                                        N/A2                          N/A                          N/A
Carrier K1                                  19,631,277                       186,172                      186,172
Carrier L                                   20,316,694                    18,693,962                   16,550,499
Carrier M                                    2,090,012                     2,090,012                    1,046,892
Carrier N                                    3,731,333                     2,448,058                            03
Carrier O                                   20,915,093                             0                            0
Carrier P                                    2,062,619                       717,132                        Open
Carrier Q                                   14,423,000                             0                            0
Carrier R                                      913,149                       639,678                      639,678
Carrier S                                       89,213                         8,066                        8,066

Total                                  $      149,355,647            $      45,858,697           $       28,485,153

1
  Represents the results of two reviews.
2
  Not applicable because review was on the second round claim and final payment was based on a significantly different claim.
3
  We previously requested that the Department reconsider its decision not to recover any of the questioned costs.
                                                                                          10




EXHIBIT B. SCOPE, METHODOLOGY, AND PRIOR AUDIT
COVERAGE

SCOPE AND METHODOLOGY
The scope of our reviews included the operational and financial data that non-major air
carriers submitted as part of their claims for compensation payments under the Act. We
conducted our reviews of air carrier claims between January 2002 and August 2003.

This summary report was prepared in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States, and included a compilation of the
results of the 19 individual advisories issued since April 2002.

As of September 2003, the Department had made payments in excess of $4.6 billion to more
than 400 air carriers. For our reviews, we selected an initial universe of all 51
non-major air carriers that were each scheduled to receive more than $2 million in
compensation payments, based on the available seat miles/revenue ton mile formula amount.1
We reviewed each air carrier’s final claim application and the independent public
accountant’s report to identify any concerns or questionable costs. Based on this review, we
identified five air carriers that required additional scrutiny.

We also reviewed 16 air carrier claims as a result of requests from the Claims Review Team.
The requests involved questions on operational data, pre-September 11 forecasts, and costs
reported. We visited 16 air carriers and contacted 3 additional air carriers to obtain
documentation supporting the claims submitted.

Through our field visits and desk reviews, we determined whether the claims and their
supporting financial and operational documentation were in accordance with the
Department’s procedures for the compensation program detailed in Title 14 CFR Part 330.
Additionally, we reviewed the supporting documentation provided by the air carriers, such as
forecasts, revenue and expense schedules, accounting records, Federal tax returns, financial
statements, invoices, aircraft lease agreements, Security and Exchange Commission fillings,
and sales histories.

PRIOR AUDIT COVERAGE
On October 3, 2002, the OIG issued Report Number CR-2003-001, Review of Midway
Airlines—Air Carrier Compensation Payments. After filing for Federal bankruptcy

1
    Two of the air carriers in our initial universe did not submit final claims.
                                                                                       11

protection in August 2001, Midway Airlines ceased operations, but resumed flights in
December 2001 after receiving Federal compensation assistance under the Act, subject to a
bankruptcy court order. Our initial review of disbursements made through December 2001
found that $687,143 was for payment of expenses not directly related to resumption of
operations, and therefore not allowable. After discussion with the OIG, Midway Airlines
agreed to return these funds to the Federal compensation account. Our subsequent review
found that the air carrier had received $12,120,995 of Federal compensation payments as of
August 2002. We concluded that, after the adjustments cited above, Midway Airlines had
disbursed this entire amount from December 2001 through August 2002 in accordance with
the terms of the bankruptcy court order.
                                                                              12




EXHIBIT C. CONTRIBUTORS TO THIS REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.

     Name                   Title

     Mark R. Dayton         Assistant Inspector General for Competition and
                            Economic Analysis
     Michael E. Goldstein   Program Director
     James Diecker          Project Manager
     George Lavanco         Project Manager
     Timothy Keane          Senior Analyst
     Bernard Fishman        Auditor
     Kirk Gillett           Auditor
     Doral Hill             Auditor
     Deborah Kloppenburg    Auditor
     Johanna Nathanson      Analyst
     Joseph Tschurilow      Auditor
     Harriet Lambert        Editor
